                                                                NATIONAL SCIENCE FOUNDATION
                                                                 OFFICE OF INSPECTOR GENERAL
                                                                   OFFICE OF INVESTIGATIONS

                                                         CLOSEOUT MEMORANDUM


I    Case Number: A05050025                                                                                           Page 1 of 1



             We received an allegation that an NSF employee1 (Employee A) facilitated the hiring of a family
             membe? (Employee B) in violation of 5 U.S.C. 8 3 110 (IJ).~ We reviewed the Official Personnel
             File of each and could find no similarities in names or addresses.

              In order to determine the validity of the claim, we spoke to the Division ~ i r e c t o who
                                                                                                      r ~ indicated
              that Employee A did not supervise Employee B, however Employee A was a member of the
              hiring panel which selected Employee B.

             We interviewed Employee A who indicated that no relatives were working at NSF. No relative,
             by marriage or by blood had ever worked at NSF. There is no familial connection with anyone
             currently or previously working within the same Division. When provided with the name of
             Employee B, Employee A responded that they were not in any way related and that the first time
             they met face-to-face was when Employee B came in for an interview.

              Employee A indicated that the confusion might stem from the hiring of a summer intern for the
              Division for 2005, who was the sister of a former NSF intern.

              Employee B left NSF by mutual agreement at the end of the initial probationary period to pursue
              a job in the field for which Employee B obtained a degree.

              We found the information provided by Employee A to be credible. Lacking any proof that there
              was any violation of rule, regulation or law,

              this case is closed.




                5 U.S.C. $3 110(b) states "A public official may not appoint, employ, promote, advance, or advocate for
              appointment, employment, promotion, or advancement, in or to a civilian position in the agency in which he is
              serving or over which he exercises jurisdiction or control any individual who is a relative of the public official. An
              individual may not be appointed, employed, promoted, or advanced in or to a civilian position in an agency if such
              appointment, employment, promotion, or advancement has been advocated by a public official, serving in or
              exercising jurisdiction or control over the agency, who is a relative of the individual." Under 5 U.S.C. $3 110(a)(3)
              "relative" means, with respect to a public official, an individual who is related to the public official as father, mother,
              son, daughter, brother, sister, uncle, aunt, first cousin, nephew, niece, husband, wife, father-in-law, mother-in-law,
              son-in-law, daughter-in-law,brother-in-law, sister-in-law, stepfather, stepmother, stepson, stepdaughter, stepbrother,
              steusister. half brother. or half sister.
              4
                                     Division Director,


'
I                                                                                                                                           Ul
    NSF OIG Form 2 (1 1/02)
